Supreme Court, U.S.
FILED

WAIVER

JAN 0 6 2021

Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-725

Arthur Levine
(Respondent)

v.

Michael Ramon ()chin
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
X There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Arthur Levine, MD, University of Pittsburgh Board of Trustees, UPMC Board of Directors, Dr. George K.
Miclraloptrufos713rnornthanyffemetris
trel-Westrnurefart=A-zzarriT-Dr. Rolf G. Jacob, Western
Psychiatric Institute and Clinic, Dr. Anne Thompson, Dr. Parmjeet Randhawa, Dr. Michael Nalesnik, Dr. Marta
Miners/1m, 'Thomas E. Starzl Transplantation Institute, and Dr. Mukesh Sah
0 I am a member of the Bar of the Supreme Court of the United States.
X I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
id/ Stevea d.Etriclez

Signature

12/24/2020

Date:
(Type or print) Name

Steven L. Ettinger
Mr.

0 Ms.

0 Mrs.

Firm

Dickie, McCamey & Chilcote P.C.

Address

Two PPG Place, Suite 400

City & State
Phone

Pittsburgh, PA

0 Miss

Zip

412-281-7272

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc: Scott G. Dunlap, Esquire
Brian C. Vertz, Esquire

Obtain status of case on the docket. By phone at 202.479-3034 or via the internet at
http://www.supremecourtus.gov . Have the Supreme Court docket number available.

RECEIVED
JAN 14 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Dickie McCamey
412-392-5631
Fax: 888-811-7144
settinger@dmclaw.com

Steven L. Ettinger

Attorney at Law
Admitted in PA

January 5, 2021
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Michael Ramon Ochoa v. Dr. Arthur Levine, et al.
Supreme Court No.: 20-725
Our File No.: 56313.344969

Dear Mr. Harris:
Please be advised the respondents, Arthur Levine, M.D., University of Pittsburgh
Board of Trustees, UPMC Board of Directors, Dr. George K. Michalopoulos, Dr. Anthony
Demetris, Dr. Samuel Westmoreland, Dr. Pierre Azzam, Dr. Rolf G. Jacob, Western
Psychiatric Institute and Clinic, Dr. Anne Thompson, Dr. Parmjeet Randhawa, Dr. Michael
Nalesnik, Dr. Marta Minervini, Thomas E. Starzl Transplantation Institute and Dr. Mukesh
Sah, do not intend to file a response to the Petition for a Writ of Certiorari relative to the
above matter. I have enclosed an executed Waiver relative to same.
Thank you.
Very truly yours,

/Si Steive41/ L. Etttiver
Steven L. Ettinger
SLE:kbd
Enclosure
cc:

(All with enclosure)
Scott G. Dunlap, Esquire
Brian C. Vertz, Esquire

RECEIVED
JAN 14 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

DICKIE, AKAMEY & CHILCOTE, P.C. I ATTORNEYS AT lAW
MAIN: 412-281-7272 FAX: 888-811-7144
TWO PPG PIKE, SUITE 400 I PITTSBURGH, PA 15222-5402 I WWW.DMC1AW.COM

CALIFORNIA I COLORADO I DELAWARE I MICHIGAN
NEWJERSEY I NEWYORK I NORTH CAROLINA I OHIO
PENNSYLVANIA I SOUTH CAROLINA I WEST VIRGINIA

